MAX RENEA HICKS
ATTORNEY AT LAW
Post Office Box 303187
Austin, Texas 78703

August 3, 2021

(512) 480-8231
rhicks@renea-hicks.com

Scott Harris
Clerk, Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

by e-file

Re: City of Austin, Texas v. Reagan National Advertising of Texas, Inc., et al.,
No. 20-1029
Dear Mr. Harris:
Pursuant to S. Ct. Rule 30, I write to request a one-day extension of time to
file petitioner’s opening brief in the above-captioned case. The Court granted
certiorari on June 28, 2021, and petitioner’s opening brief is due on August
12, 2021. If the requested extension is granted, the brief would be due on
August 13, 2021.
Petitioner seeks the additional day to prepare and finalize the opening brief
in this case. Counsel for respondents has indicated that respondents do not
oppose the requested extension.
Thank you for your consideration.
Sincerely,
_/s/ Renea Hicks____________
Renea Hicks
Counsel of Record for Petitioner
cc: B. Russell Horton
J. Allen Smith

Board Certified CIVIL APPELLATE LAW - Texas Board of Legal Specialization

